Region 8 Needed to Further Improve Interagency
Agreement Oversight to Ensure Efficient
Summitville Superfund Site Cleanup
                                                   #6400019


                                  EXECUTIVE SUMMARY
BACKGROUND

We conducted a special review of Region 8's oversight and monitoring of its Interagency Agreements (IAG)
with the Department of Interior's Bureau of Reclamation (Reclamation) for hazardous waste cleanup at the
Summitville mining site in southwest Colorado. Our specific objectives were to evaluate whether Region 8: (1)
appropriately responded to the Summitville emergency and reasonably selected cleanup actions in accordance
with established procedures, and (2) provided adequate oversight and monitoring of the Reclamation IAGs for
Summitville cleanup.

WE FOUND THAT

Region 8 reduced hazardous waste risks to the environment and the public. The Region reasonably selected
removal and remedial cleanup remedies and complied with the National Contingency Plan requirements and
Superfund guidance. Region 8 extensively participated with Reclamation in making management and
contracting decisions but did not adequately oversee and monitor Reclamation to control costs and ensure
efficient cleanup implementation. Further, the Region did not ensure that its contracting decisions with
Reclamation minimized cleanup implementation costs.

WE RECOMMENDED THAT

The Regional Administrator:

       -- instruct Regional project managers to closely monitor Reclamation's compliance with the Summitville
       IAG terms and conditions and take appropriate action to enforce compliance;

       -- establish Regional controls over all IAG payment requests so that Regional project managers do not
       approve payments without adequate supporting documentation;

       -- based on the Department of Interior's legal opinion, recover $750,000 of ineligible costs paid to
       Reclamation under delivery order 13, if appropriate;

       -- obtain adequate supporting documentation for all past Reclamation payment requests and recover any
       other ineligible costs paid Reclamation;

       -- encourage Reclamation to definitize Summitville cleanup tasks, cease the use of time-and-materials
       delivery orders, and establish fixed-price contracts to the extent practicable as soon as possible; and

       -- reevaluate the suitability of Reclamation's Upper Colorado Regional Office for managing the
       Summitville site and any future Environmental Protection Agency Superfund cleanup activities.
The Region did not agree with all our findings and recommendations. Region 8 staff stated that our criteria were
not clear and our conclusions were subjective. The staff also stated that we oversimplified Summitville's
technical aspects and diminished the cleanup effort.



   •   Report of Audit - Region 8 Needed to Further Improve Interagency Agreement Oversight to Ensure
       Efficient Summitville Superfund Site Cleanup (6400019)
